                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: 1-11-10-0040                                                                              Page 1 of 1



                 We received word that an NSF videoteleconference device used as part of the U.S. Antarctic
         Program and operated by the USAP contractor1 had been compromised by an unknown party, by
         means of an internal device command that allowed an intruder to place a phone call to the device,
         invoke the internal command, and acquire an umestricted outgoing phone line for placing further
         calls. AT&T noticed unusual outgoing international calling activity on the device and notified the
         contractor, which notified NSF. Numerous short-duration calls were made to numbers in various
                            2
         foreign countries.

                 We notified the FBI, which questioned contractor officials, and used subpoenas to acquire
         information about the numbers dialing into the device. The intruder used one number for most of the
         intrusions. We traced the number back to a major trunk line used by the U.S. affiliate3 of a foreign
         company,4 and provided an update to the FBI. Although we acquired additional records for the
         voluminous calls made and received on the affiliate's trunk line for a time period surrounding the
         days when the intrusions occurred, we could not establish any additional investigative leads through
         our analysis of the records.

                We were unable to identify a responsible party, and the FBI could not identify a basis for
         opening a criminal case. Accordingly, this case is closed with no further action taken.




         1
           Raytheon Polar Services Company.
         2
           The countries include Canada, Philippines, Maldives, Guinea, Mauritania, Zimbabwe, Djibouti, Gambia, Senegal,
         Sierra Leone, Libya, Somalia, Algeria, Gabon, Bulgaria, and Comoros.
         3
           Future Wei Technologies, Inc.
         4
           Huawei Technologies.




NSF OIG Form 2 (11/02)
